No. 20A120

In the
Supreme Court of the United States

WENDY GISH, PATRICK SCALES, JAMES DEAN MOFFATT, AND BRENDA WOOD,
Applicants,
v.
GAVIN NEWSOM, in his official capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney General of California,
Respondents.

To the Honorable Elena Kagan, Associate Justice of the United States Supreme
Court and Circuit Justice for the Ninth Circuit

Notice of Status of Church Discrimination in California with the Regional
Stay Home Order ending on January 25, 2021

RONALD D. COLEMAN
Counsel of Record
DHILLON LAW GROUP, INC.
8 HILLSIDE AVENUE – SUITE 103
MONTCLAIR, NJ 07042
(973) 298-1723
rcoleman@dhillonlaw.com

HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP, INC.
177 POST STREET, SUITE 700
SAN FRANCISCO, CA 94108
(415) 433-1700
harmeet@dhillonlaw.com
mmeuser@dhillonlaw.com

Counsel for Applicants Wendy Gish, Patrick Scales, James Dean Moffatt, and
Brenda Wood

On January 25, 2021, the State of California announced that it
was ending its Regional Stay Home Order “because 4-week ICU
capacity projections in the three remaining regions under the order had
reached 15% or higher. The limited Stay at Home Order (curfew) has
also ended. Counties will now return to restrictions according to their
tier in the Blueprint for a Safer Economy.” (See
https://covid19.ca.gov/stay-home-except-for-essential-needs/). The
Blueprint for Success was introduced in the State of California on
August 28, 2020, by order of the Statewide Public Health Officer
(Appendix 13). This Public Health Officer Order in turn cites as its
authority California Governor Gavin Newsom’s Executive Orders N-2520 and N-60-20 (Appendix 5 & 6).
Applicants had previously submitted, in support of their
application, Appendix 16, containing a summary of the Blueprint for a
Safer Economy. This chart shows that an individual can receive
“Personal Care Services” indoors but “Places of Worship” can only be
located, and hence congregate worship is only permitted, outdoors.
Appendix 16 also shows that Retail and Shopping Centers are allowed
to be open indoors while church doors remain shuttered.

1

It is Applicants’ position that, regardless of whether the State of
California couches its restrictions on congregate worship as the
“Regional Stay Home Order” or the “Blueprint for Safer Economy,”
religious worshippers are being deprived of their constitutional rights to
freely exercise their faith. Because both the Regional Stay Home Order
and the Blueprint for Safer Economy are based on the Governor’s
Executive Orders, which is the core regulation being challenged in the
matter, Applicants renew their request that this Court enter an
injunction prohibiting the enforcement of Executive Orders N-33-20
(March 19, 2020) and N-60-20 (May 4, 2020) against them pending final
resolution in this case, including the filing and disposition of any Writ
of Certiorari.
Respectfully submitted this 25th day of January, 2021.
RONALD D. COLEMAN
Counsel of Record
DHILLON LAW GROUP, INC.
8 Hillside Avenue – Suite 103
Montclair, NJ 07042
(973) 298-1723
rcoleman@dhillonlaw.com

HARMEET DHILLON
MARK P. MEUSER
DHILLON LAW GROUP, INC.
177 Post Street, Suite 700
San Francisco, CA 94108
(415) 433-1700
harmeet@dhillonlaw.com
mmeuser@dhillonlaw.com
Counsel for Applicants, Wendy Gish,
Patrick Scales, James Dean Moffatt,
and Brenda Wood
2

